No.
In The
Supreme Court of the Mnited States

 

Scott Howard Meyer,
Petitioner,
vs.
Emily Peterson,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE MINNESOTA SUPREME COURT

PETITION FOR A WRIT OF CERTIORARI
RULE 33.1(h) CERTIFICATE OF WORD COUNT

As preparer of the document above, I hereby certify that the Petition for a Writ
of Certiorari, Docket no. , complies with Rule 33.1 in that it contains the
proper typeface in the proper size. I further certify that the document contains 3,340
words total, including the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on tl { \ , 2019.

Stephen M. West
Bachman Legal Printing

November, 2019.

ee

  
  
  
 

     

, KRISTI AUSTIN MOTCH
NOTARY PUBLIC-MINNESOTA
_3 My Commission Expires Jan. 31,2020

PIeVeALATaA OA

 

2019 - BACHMAN LEGAL PRINTING — FAX (612) 337-8053 — PHONE (612) 339-9518 or 1-800-715-3582
